IN THE
SUPREME COURT OF THE UNITED STATES

Charles Dennis Friedman v. United States of America
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

APPENDIX B
District Court Memorandum Decision and Order
Denying, 28 U.S.C. § 2255

Case
Case
2:18-cv-00906-RJS
2:18-cv-00906-RJS
Document
Document
40-122 Filed
Filed12/13/19
05/24/19 Page
Page104
1 ofof4127
Appellate Case: 19-4127 Document: 010110274517 Date Filed: 12/13/2019 Page: 104

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
CHARLES DENNIS FRIEDMAN,
Petitioner,
v.

MEMORANDUM DECISION AND
ORDER DENYING 28 U.S.C. § 2255
MOTION TO VACATE, SET ASIDE, OR
CORRECT SENTENCE

UNITED STATES OF AMERICA,
2:18-cv-906
Respondent.
Chief District Judge Robert J. Shelby

Before the court is Petitioner Charles Dennis Friedman’s 28 U.S.C. § 2255 Motion to
Vacate, Set Aside, or Correct Sentence. 1 The basis for the Motion is the United States Parole
Commission’s decision to run its parole violation term consecutively to this court’s 24-month
supervised release violation (SRV) term. 2 Friedman contends the government breached its plea
agreement by deciding to run its parole violation term consecutively, rather than concurrently. 3
To remedy this breach, Friedman asks the court to vacate the 24-month SRV term it imposed in
2007, and impose instead a 1-day SRV term. 4 After consideration of the parties filings, 5 and as
explained below, and the court DENIES Friedman’s Motion as untimely.
28 U.S.C. § 2255(f) establishes a one-year period of limitation for § 2255 Motions. The
limitation period runs from the latest of:
(1) the date on which the judgment of conviction becomes final;
1

Dkt. 1.

2
The facts of this case are complicated and are set forth in the government’s memorandum in opposition, Dkt. 9, in
Friedman’s supplemental brief, Dkt. 18, and in other written documents filed in related cases. See, e.g., 2:99-cr-100
(D. Utah), Dkt. 92 (detailing history).
3

Dkt. 1.

4

Id.

5

Dkts. 1, 2, 3, 5, 9, 10, 18, 19, 20.

104

Case
Case
2:18-cv-00906-RJS
2:18-cv-00906-RJS
Document
Document
40-122 Filed
Filed12/13/19
05/24/19 Page
Page105
2 ofof4127
Appellate Case: 19-4127 Document: 010110274517 Date Filed: 12/13/2019 Page: 105

(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the United
States is removed, if the movant was prevented from making a motion by
such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and
made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could
have been discovered through the exercise of due diligence. 6
Here, Friedman’s § 2255 Motion—which he filed on November 20, 2018 7—is untimely
regardless of which trigger applies. First, the date of final judgment Friedman now challenges
was March 1, 2007. 8 The time to challenge the consecutive nature of the 24-month SRV
sentence thus expired on March 1, 2008. Second and third, Friedman does not claim the
government unlawfully impeded his filing of a § 2255 motion, nor does he claim the Supreme
Court recently recognized a new right.
Fourth, Friedman could have discovered the facts supporting his breach of plea
agreement claim on June 19, 2013. On that date or shortly thereafter, Friedman received from
the U.S. Parole Commission a Notice of Action, informing him he would be subject to serving
his parole violation term only after he completed sentences for his 2005 bank robbery and the
consecutive sentence for his 1999 bank robbery. 9 The Notice of Action informed Friedman the
decision is not appealable. 10

6

28 U.S.C. § 2255(f).

7

Dkt. 1.

8

See 2:99-cr-0100, Dkts. 79 & 80.

9

See 2:02-cv-1421, Dkt. 6, Ex. 3.

10

Id.

2

105

Case
Case
2:18-cv-00906-RJS
2:18-cv-00906-RJS
Document
Document
40-122 Filed
Filed12/13/19
05/24/19 Page
Page106
3 ofof4127
Appellate Case: 19-4127 Document: 010110274517 Date Filed: 12/13/2019 Page: 106

Friedman argues the Notice of Action did not adequately notify him of its decision to run
its parole violation term consecutively to this court’s 24-month SRV term. 11 He states, “the
USPC only determines whether to revoke parole/mandatory release after it executes its
warrant.” 12 For three independent reasons, the court cannot accept Friedman’s argument that the
Notice of Action failed to adequately inform him of the facts supporting his breach of plea
agreement claim.
First, the Notice of Action informs Friedman that the Parole Commission intended to
prevent his immediate release upon completion of his 151-month sentence for his 2005 robbery
and consecutive 24-month sentence for his violation of the terms of release for his 1999 robbery.
Based on Friedman’s view of his 2005 plea agreement, failure to immediately release him
following completion of the 175-month sentence would constitute breach of the plea agreement.
Second, based on notice substantially similar to that contained in the Notice of Action,
Friedman previously filed a § 2255 Motion pursuing the same theory of breach in 2003. 13 In the
2003 Motion, Friedman stated—as the reason for bringing his Motion—that someone “informed
him the United States Parole Commission would see him only when he is ‘done’ with his new
and present commitment.” 14 If anything, the present written Notice of Action is clearer than the
2003 oral communications that gave rise to Friedman’s successful 2003 Motion. 15

11

Dkt. 10 at 6.

12

Id.

13

Dkt. 60 at ECF Pagination 9–10.

14
Id.; see also id. at ECF 11 (asserting, as a basis for his § 2255 Motion, that prison officials told Friedman “they
cannot and will not administratively release him to the parole violation detainer”).
15

Friedman’s argues his claim was not ripe until the date the Parole Commission executed the warrant on October
14, 2018. Dkt. 1, Ex. 4 at 4. The success of the 2003 Motion, however, undercuts his ripeness argument.

3

106

Case
Case
2:18-cv-00906-RJS
2:18-cv-00906-RJS
Document
Document
40-122 Filed
Filed12/13/19
05/24/19 Page
Page107
4 ofof4127
Appellate Case: 19-4127 Document: 010110274517 Date Filed: 12/13/2019 Page: 107

Third, Friedman previously sought the exact relief he now seeks based on the Notice of
Action. 16 On May 9, 2018, Friedman filed a Motion to Amend his 2003 Motion, pursuant to
Rule 15(c) of the Federal Rules of Civil Procedure. 17 On June 21, 2018, Friedman filed a
Motion to Set Aside Judgment Pursuant to Rule 60(b)(6). 18 Although the court denied those
Motions on October 2, 2018, 19 those Motions demonstrate Friedman was well aware of the facts
supporting his breach of plea agreement claim prior to October 14, 2018.
The court concludes Friedman could have, through the exercise of due diligence,
discovered the facts supporting his breach of plea agreement claim when he received the Notice
of Action on June 19, 2013. Indeed, it appears Friedman discovered those very facts, and chose
to seek relief under Rule 15(c) rather than § 2255. In any event, because he failed to file his
§ 2255 Motion within one year of that date, his Motion is DENIED as untimely. The clerk of
court is directed to close the case.
So ORDERED on this 24th day of May, 2019.
BY THE COURT:

________________________________________
ROBERT J. SHELBY
Chief United States District Judge

16

See generally 2:02-cv-1421 at Dkts. 7, 17.

17

2:02-cv-1421, Dkt. 7.

18

2:02-cv-1421, Dkt. 8.

19

2:02-cv-1421, Dkt. 17.

4

107

